U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

May 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
United States v. Husayn a.k.a. Abu Zubaydah,
No. 20-827
Dear Mr. Harris:
On April 26, 2021, the Court granted the petition for a writ of certiorari in the abovecaptioned case. The government’s brief as petitioner is currently due on June 10, 2021.
Because of scheduling difficulties and the press of other matters before the Court, the
parties respectfully request, under Rule 30.4 of the Rules of this Court, a 22-day extension of time,
to and including July 2, 2021, within which to file the government’s brief; and an 11-day extension
of time, to and including August 13, 2021, within which to file the respondents’ brief. If those
extensions are granted, the reply brief would be due on September 13, 2021 (a Monday).
The parties have agreed on the schedule above, which is necessary to accommodate to the
litigation schedules of counsel.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0827
USA
HUSAYN, ZAYN AL-ABIDIN MUHAMMAD, AKA
ABU ZUBAYDAH, ET AL.

DAVID F. KLEIN
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 17TH STREET, NW
WASHINGTON, DC 20032
DAVID.KLEIN@PILLSBURYLAW.COM
JERRY J. MOBERG
MOBERG RATHBONE KEARNS, P.S.
124 3RD AVE, S.W.
EPHRATA, WA 98823-2619
JMOBERG@MRKLAWGROUP.COM
CHRISTOPHER TOMPKINS
BETTS, PATTERSON & MINES, P.S.
701 PIKE STREET
SUITE 1400
SEATTLE, WA 98101
CTOMPKINS@BPMLAW.COM

